NO.

In the Supreme Court of the United States
MICHAEL KIMBREW,
–v–

Petitioner,

UNITED STATES OF AMERICA,

Respondent.
PROOF OF SERVICE
I, Raul Chavarin, do declare that on this date,
July 14, 2020, as required by Supreme Court Rule 29, I
have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR
WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel by depositing an
envelope containing a true and correct copy of the same
in the United States mail with first-class postage
prepaid for delivery to the following address:
Noel Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530–0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for United States

I declare under penalty of perjury that the foregoing is
true and correct.
Executed on July 14, 2020

